CERTIFICATE OF COMPLIANCE
Case No. 20-138
Caption: Trump v. Sierra Club
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 12,522 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 12, 2021

ecord Press, Inc.

Sworn to before me on
January 12, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Com

